Press Releases, Detriot, MI., February 01, 2012 - Former Detroit Public Schools Accountant, Teacher Indicted on Fraud and Money Laundering Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFFICE
EASTERN DISTRICT OF MICHIGAN
NEWS
Former Detroit Public Schools Accountant, Teacher Indicted on Fraud and Money Laundering Charges
FOR IMMEDIATE RELEASE
February 01, 2012
Sandra Campbell, a former Detroit Public Schools contract accountant and School Board candidate, and her daughter, Domonique Campbell, a Detroit Public Schools teacher, were indicted by a federal grand jury in Detroit on charges of program fraud conspiracy, money laundering conspiracy and tax charges, United States Attorney Barbara L. McQuade announced today.
McQuade was joined in the announcement by Special Agent in Charge Andrew Arena, Federal Bureau of Investigation, and Special Agent in Charge, Erick Martinez, Internal Revenue Service, Criminal Investigation.
The nine-count indictment charges that between 2004 and 2008, Sandra Campbell, 56, and Domonique Campbell, 37, obtained in excess of $530,000.00 from the Detroit Public Schools through a fraudulent scheme in which orders were placed with the Campbells’ sham company for books and educational materials never provided to the schools. The indictment further alleges that Sandra Campbell and Domonique Campbell conspired to defraud the Internal Revenue Service and failed to report the money they fraudulently obtained from the Detroit Public Schools as income on their tax returns.
Sandra Campbell is also charged in the indictment with wire fraud. This count alleges that Campbell obtained a $40,000 discount payoff of a $250,000 mortgage on her home through a fraudulent “short sale” of the property to her mother.
United States Attorney Barbara L. McQuade said, "Anyone who considers stealing from our school children should take note that we are scrutinizing records and conduct, and will prosecute wrongdoers."
FBI Special Agent in Charge Andrew Arena stated, "The FBI would like to thank all of our partners who continue to assist us in battling corruption. In particular, I would like to note the continued support of DPS Inspector General Van Marsh and his team, The alleged actions of these subjects do nothing more than steal the opportunity for quality education from our children. Such actions can not be tolerated and will be pursued by the FBI and it's partners."
IRS Special Agent in Charge Erick Martinez stated, “"Those who profit at the expense of our children and steal from our community will be held accountable for their greedy actions".
The case was investigated by special agents of the FBI, IRS and Department of Education, Office of Inspector General, with the assistance of Detroit Public Schools, Office of Inspector General. The case is being investigated and prosecuted by Assistant United States Attorneys J. Michael Buckley and Pamela Thompson of the Public Corruption Unit.
Top
Printable view
Last Modified: 02/27/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov